Audit Report




OIG-14-040

SAFETY AND SOUNDNESS: Failed Bank Review of DuPage
National Bank, West Chicago, Illinois
June 24, 2014




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              June 24, 2014


            OIG-14-040

            MEMORANDUM FOR THOMAS J CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of DuPage National Bank


            This memorandum presents the results of our review of the failure of DuPage
            National Bank (DuPage). DuPage was founded as the Bank of Newton and Smiley in
            1891. It was converted to a national bank charter in 1962 and assumed its present
            name in 1982. DuPage was wholly owned by F.F. Holding Corporation, a one-bank
            holding company. The bank’s main office and two branches were located in West
            Chicago and Hinsdale, Illinois. OCC closed DuPage and appointed the Federal
            Deposit Insurance Corporation (FDIC) as receiver on January 17, 2014. As of
            September 30, 2013, the bank had $61.7 million in total assets. As of April 30,
            2014, FDIC estimated that the loss to the Deposit Insurance Fund is $1.6 million.

            Because the loss to the Deposit Insurance Fund is less than $50 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of DuPage that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver and (2) interviewed OCC examination personnel.

            We conducted this performance audit from January 2014 to April 2014 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit objectives.
OIG-14-040
Page 2

Cause of DuPage National Bank’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank was in an unsafe or unsound condition to transact business,
(3) the bank’s unsafe or unsound practices or conditions were likely to cause
insolvency or substantial dissipation of assets or earnings, (4) the bank’s unsafe or
unsound practices or conditions were likely to weaken the institution’s condition,
(5) the bank had incurred or was likely to incur losses that would deplete all or
substantially all of its capital and there was no reasonable prospect for it to become
adequately capitalized, (6) the bank was undercapitalized and had no reasonable
prospect of becoming adequately capitalized, (7) the bank was undercapitalized and
had failed to submit a capital restoration plan acceptable to the OCC within the time
prescribed, and (8) the bank was critically undercapitalized.

The primary cause of DuPage’s failure was its pursuit of a loan growth strategy funded
increasingly by non-core funding sources, which resulted in significant concentrations
in commercial real estate (CRE) loans outside of the bank’s local market areas without
appropriate risk management practices or capital to protect the bank from a prolonged
period of deteriorating asset quality. Beginning around 2003, DuPage’s loan portfolio
mix shifted from a combination of residential real estate loans and CRE loans toward
increased CRE lending. As the bank continued to grow, weaknesses in its strategic
planning, budget monitoring, and concentration risk management caused increasing
strain on DuPage’s financial condition. Board and management’s lax oversight and
failure to promptly adjust to changing economic conditions and the declining local real
estate market became increasingly apparent as DuPage’s asset quality deteriorated,
concentration levels increased, other real estate owned increased, and earnings and
capital declined. The problems created by the board and management’s unsafe or
unsound growth strategy were severe and led to depletion of the bank’s capital.


Conclusion
Based on our review of the causes of DuPage’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no
circumstances surrounding the bank’s failure that would necessitate an in-depth
review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of DuPage’s failure and that it had no concerns with our determination that
an in-depth review of the bank’s failure is not warranted. The response is provided
OIG-14-040
Page 3

as Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle at (202) 927-6345.

Attachments
         OIG-14-040

       Attachment 1
Management Response
         OIG-14-040

       Attachment 1
Management Response
                                                       OIG-14-040

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
